                                                                UNCLASSIFIED


                                               United States Department of State

                                            and the Broadcasting Board of Governors

                                                   Office of Inspector General

Office of Inspector General


                                                        Office of Audits



                                  Review of Best-Value Contracting for the
                                 Department of State Local Guard Program
                                   and the Utility of Expanding the Policy
                                     Beyond High-Threat Posts in Iraq,
                                         Afghanistan, and Pakistan

                                          Report Number AUD/CG-12-27, February 2012




                                                                Important Notice

                               This report is intended solely for the official use of the Department of State or the
                               Broadcasting Board of Governors, or any agency or organization receiving a copy
                               directly from the Office of Inspector General. No secondary distribution may be
                               made, in whole or in part, outside the Department of State or the Broadcasting Board
                               of Governors, by them or by other agencies of organizations, without prior
                               authorization by the Inspector General. Public availability of the document will be
                               determined by the Inspector General under the U.S. Code, 5 U.S.C. § 552. Improper
                               disclosure of this report may result in criminal, civil, or administrative penalties.



                                                               UNCLASSIFIED

                                    UNCLASSIFIED



                                  TABLE OF CONTENTS

Section                                                                              Page 

Executive Summary                                                                      1

Background                                                                             2

Review Objective                                                                       4

Results of Review                                                                      4

  OIG Could Not Determine Whether Best-Value Local Guard Contracting Would Be          5

  More Cost-Effective, but it Would Likely Improve Contractor Performance 

  More Than Two-Thirds of Posts Responding to an OIG Survey Noted Problems With        9

  Their Local Guard Contract 

  The 10 Percent Price Preference Given to U.S. Companies Is No Longer Relevant in    12 

  the Current Local Guard Contracting Environment 

Conclusions                                                                           13 

   Matters for Congressional Consideration                                            14 

Appendices
A Scope and Methodology                                                               15 

B U.S. Senate Committee on Foreign Relations Letter                                   17 

C Local Guard Program Survey                                                          18 

D Bureau of African Affairs Comments                                                  21 

Major Contributors to This Report                                                     22





                                    UNCLASSIFIED

                                        UNCLASSIFIED




Acronyms and Definition of Terms

A/LM/AQM 	       Bureau of Administration, Office of Logistics
                 Management, Office of Acquisitions Management
best-value       	best-value tradeoff
Department 	     Department of State
DS 	             Bureau of Diplomatic Security
FAR 	            Federal Acquisition Regulation
lowest-price 	   lowest-price, technically acceptable
OIG 	            Office of Inspector General
RSO 	            Regional Security Office or Regional Security
                 Officer
WPS 	            Worldwide Protective Services




                                        UNCLASSIFIED

                                       UNCLASSIFIED


                                    Executive Summary
       On June 27, 2011, the Office of Inspector General (OIG) received a request from the
Senate Committee on Foreign Relations to examine the best-value contract award method and its
possible application to local guard contracts worldwide. The Department of State (Department)
was granted authority in 2009 to award best-value contracts in Iraq, Afghanistan, and Pakistan.1
However, this authority does not currently apply to other overseas diplomatic posts. Instead, the
Department is required to “award contracts to the technically acceptable firm offering the lowest
evaluated price.”2 Specifically, under the lowest-price, technically acceptable award method
(lowest-price), an offeror considered technically acceptable and offering the lowest price is
awarded the contract. Under the best-value tradeoff award method (best-value), the Government
may consider factors beyond price in making the award, such as technical approach and past
performance, when the perceived benefit merits the additional cost. (These two contract award
methods are compared in Table 1.)

        OIG determined that best-value contracting for local guard services would generally be
more expensive than lowest-price contracting. Officials from the Bureau of Diplomatic Security
(DS), which is responsible for managing the Local Guard Program, and officials from the Bureau
of Administration (A), which is responsible for Department procurement, noted that oversight
costs for best-value awards could be lower than oversight costs for lowest-price awards, since
competition under best-value awards would likely increase and awards would likely be made to
better qualified vendors.

       OIG also ascertained from Department officials in Washington, DC, and officials at
overseas diplomatic posts that the best-value award method would likely lead to improved
contract performance and increased security at overseas posts compared with the lowest-price
award method. DS headquarters officials stated that the best-value award method could work
especially well in countries with high-threat security situations beyond Iraq, Afghanistan, and
Pakistan.

        OIG conducted a survey of officials at 104 overseas diplomatic posts with local guard
contracts awarded under the lowest-price method and found that officials were generally satisfied
with their current local guard contractor’s performance, according to the 86 responses received.
However, more than two-thirds of survey respondents noted that they had experienced some
problems with their current contractor, and over half of the respondents strongly believed that
their post would benefit from having the option to use best-value contracting for the guard
services.

       OIG also found at some overseas posts that local guard contracts let under the current
lowest-price award method had performance problems and an increased need for oversight from
Department officials–a condition that may be alleviated by the use of the best-value method
where price is not the overriding factor in awarding the contract. OIG’s survey revealed that
Regional Security Officers (RSO) and/or their staff members spent an average of 23 hours per
week monitoring contracts awarded using the lowest-price method. At some posts, the weekly
oversight requirements reached 60 hours per week, or nearly three times the average reported. In
1
    Pub. L. No. 111-117 § 7006.
2
    22 U.S.C. § 4864.
                                            1
                                       UNCLASSIFIED
                                             UNCLASSIFIED


addition, the current contracting method has allowed contractors with the lowest price to win
contract competitions, although in certain instances they had marginal qualifications, despite
being accepted by a technical evaluation panel reviewing their offers. According to A Bureau
officials, in some cases lowest-price contracting has also resulted in limited competition because
contractors that were otherwise qualified chose not to submit a proposal, believing they would be
underbid on price.

       Finally, OIG found that the 10 percent price preference given to U.S. companies for local
guard contracts, as required by 22 U.S.C. § 4864(c)(3), has not been a factor in recent local guard
contract competitions. Specifically, OIG examined contract competition documents for 35 local
guard contracts and found that the 10 percent price preference had no effect on the outcome of
the awards. Furthermore, OIG found that it is easy for foreign companies that want to take
advantage of the price preference to become eligible by simply forming a joint venture with a
U.S. company, thus largely negating the purpose of the preference.

        OIG is offering two matters for the Senate Committee on Foreign Relations to consider:

        1.	 Expand the Department’s authority to use the best-value award methodology beyond
            Iraq, Afghanistan, and Pakistan for local guard services at overseas diplomatic posts.

        2.	 Review the need for a 10 percent price preference given to U.S. companies bidding
            on local guard contracts because the preference has not been a factor in recent local
            guard competitions.

       DS and A Bureaus did not have any comments on the draft report. The Bureau of
African Affairs provided comments, which are presented in Appendix D.

                                               Background
       In FY 2010, the total cost to the Department for the Local Guard Program was
$505.53 million. DS manages the Local Guard Program and funds the majority of its costs
(62 percent), with the remainder budgeted through the International Cooperative Administrative
Support Services program,3 which allocates the costs for programs that benefit all post tenants in
proportion to the benefits received by each organization at each post.

        The U.S. Code (22 U.S.C. § 4864) addresses the solicitation and award of local guard
contracts. Specifically, section 4864 was included to address Congressional concerns that
U.S.-based firms were not being informed of opportunities for local guard contracts overseas,
and the section requires that solicitations for such contracts be made available for review by
U.S.-based firms in order to “ensure maximum competition.” In 1998, section 4864(c)(3) was
amended to provide contractors that met the definition of a “United States person” a 10 percent
price preference for local guard contracts, giving a competitive advantage to U.S. companies
bidding on those contracts.


3
 The International Cooperative Administrative Support Services is a voluntary interagency mechanism for managing
and funding administrative services shared by participating foreign affairs agencies at overseas posts.
                                                  2
                                             UNCLASSIFIED
                                            UNCLASSIFIED


        Historically, local guard contracts were negotiated at each post using a standardized
format established by the A Bureau’s Office of the Procurement Executive. In 2008, the Under
Secretary for Management endorsed a change in the local guard contracting process to
regionalize guard contracts to cover many posts and centralize certain administrative operations
in Washington, DC, under the Bureau of Administration, Office of Logistics Management,
Office of Acquisitions Management (A/LM/AQM).4 As part of these efforts, AQM established a
branch dedicated to awarding and administering local guard contracts. As of August 1, 2011,
AQM was managing 88 local guard contracts, although the General Services Office and the RSO
at each post with a local guard contract continue to be involved in contract administration.

       On October 1, 2009, the Commission on Wartime Contracting issued a report5
concluding that the requirement to award local guard contracts to the lowest-priced offeror
among those offerors considered technically acceptable was inappropriate for security at war-
zone embassies because it forced the Government into an untenable choice (in the event of poor
performance) between contract termination and recompetition under the same constraints, or
continuing a “bad bargain” and accepting repeated poor performance. In the report, the
Commissioners recommended that the law (22 U.S.C. § 4864) be amended to authorize the
Department to award security services contracts using “the full continuum of best-value trade-off
evaluation techniques as provided in the Federal Acquisition Regulation.”

        On December 16, 2009, the Commission’s recommendation was included in the
Consolidated Appropriations Act of 2010 and became law (Public Law 111-117). Section 7006
of this act gave the Secretary of State the authority to grant authorization to award local guard
contracts on the basis of best value, as determined by a cost-technical trade-off analysis
(performed per the requirements of the Federal Acquisition Regulation [FAR], FAR 15.101), in
Iraq, Afghanistan, and Pakistan, notwithstanding the requirements of 22 U.S.C. § 4864(c)(3).
Section 7006 noted that the legislative exception applied only to contracts or renewal options
awarded during FY 2010 and required that the Secretary consult with the foreign relations
committees of the U.S. House and Senate before issuing a solicitation for a contract to be
awarded pursuant to the authority under section 7006.

        Section 107 of the Foreign Relations Authorization Act for FYs 2010 and 2011 (S. 2971,
introduced in the Senate in January 2010) contains a provision that, if passed into law, would
revise 22 U.S.C. § 4864(c)(3) to give the Secretary of State permanent authority to award local
guard contracts worldwide on the basis of best value, as determined by a cost-technical trade-off
analysis. In addition, this provision would require the Secretary to submit a report to Congress
not later than one year after the date of the enactment of the act that describes the
implementation of this new expanded authority. As of October 28, 2011, the same provision was
included in section 106 of the proposed Foreign Relations Authorization Act for FYs 2012 and
2013.



4
  OIG’s Office of Inspections December 2006 report Bureau of Administration’s Office of the Procurement
Executive, Office of Acquisitions Management, and Office of Small and Disadvantaged Business Utilization
(ISP-I-07-12) recommended that the Bureau of Administration, in coordination with DS, establish a plan to

progressively consolidate local guard contracting in the Office of Acquisitions Management.

5
  Lowest-Priced Security Not Good Enough for War-Zone Embassies, Commission on Wartime Contracting in Iraq 

and Afghanistan, CWC Special Report 2, Oct. 1, 2009. 

                                                 3
                                            UNCLASSIFIED
                                       UNCLASSIFIED


                                      Review Objective
       On June 27, 2011, the Chairman and Ranking Member of the Senate Committee on
Foreign Relations requested that OIG assess the utility of expanding the use of the best-value
award method to local guard contracts worldwide. They explained that their request was based
on Congressional concerns related to the increasing costs for the Department’s local guard
services. In addition, they stated that the Department was given the authority to use best value
when awarding contracts for guard services at posts in Iraq, Afghanistan, and Pakistan because
Congress was concerned that some of the local guard contracts awarded based on lowest price
had resulted in either higher costs when vendors found their wage scales were unrealistic and
were forced to pay more or when the performance of low-paid employees was substandard.

       The primary objective of this review was to determine the utility of applying the
Department’s authority to award contracts for local guard services using a best-value award
method for local guard contracts worldwide. Specifically, OIG’s objective was to determine the
following:

   1.	 Is the best-value award method for local guard contracts more cost effective and 

       conducive to promoting contractor performance than the lowest-price method? 


   2.	 Have local guard contracts that were awarded based on the lowest-price method required
       greater oversight and/or resulted in higher costs because of substandard contract
       performance?

   3.	 Has the 10 percent price preference for firms that meet the statutory definition of a
       “United States person” (per the requirements of 22 U.S.C. § 4864(c)(3)) been negated by
       foreign firms establishing U.S.-based subsidiaries to be deemed eligible for the price
       preference?

                                      Results of Review
       OIG determined that best-value contracting for local guard services would generally be
more expensive than lowest-price contracting, since award amounts under the best-value method
would likely be higher, according to DS and A Bureau officials. However, it is possible that
oversight costs incurred both by Washington headquarters officials and officials at overseas
diplomatic posts could be lower overall compared with costs associated with lowest-price
contracting, since competition under the best-value method would likely increase and awards
would therefore likely be made to better qualified vendors, according to those same officials.

        Respondents to an OIG survey sent to 104 overseas diplomatic posts (the Local Guard
Program Survey is in Appendix C) generally indicated that the respondents were satisfied with
their current local guard contractor’s performance, all awards for which were made under the
lowest-price method. However, more than two of three respondents also noted that they had
experienced problems with their current contractor. Furthermore, survey respondents reported
that they were strongly in favor of expanding the authority to use best value, with over half
noting that they believed their post would benefit to either a “great extent” or a “very great


                                            4
                                       UNCLASSIFIED
                                                UNCLASSIFIED


extent” by having the option of awarding local guard contracts on the basis of a best-value
tradeoff.

       OIG also found that the 10 percent price preference given to U.S. companies for local
guard contracts, as required by 22 U.S.C. § 4864(c)(3), has not been a factor in recent local guard
contract competitions and is no longer relevant in the current local guard contracting
environment.

OIG Could Not Determine Whether Best-Value Local Guard Contracting Would Be More
Cost Effective, but it Would Likely Improve Contractor Performance

        According to DS and A Bureau officials, award amounts for local guard services under
best-value contracting would likely be higher, generally, than the amounts they have been paying
using the lowest-price award method. However, according to those same and other officials
interviewed, oversight costs could be lower under the best-value method than they have been
under the lowest-price method, since it is expected that better qualified firms will enter
competitions for the best-value awards. In evaluating the anticipated higher contract award
amounts with the anticipated lower oversight costs, OIG could not determine whether the best-
value method for awarding local guard contracts would likely be more cost effective overall in
comparison with the lowest-price method for awarding the contracts.

        Based on interviews with Department officials in Washington, DC, and officials at
selected overseas diplomatic posts, OIG determined that selective use of the best-value method
for awarding local guard services has the potential to improve contractor performance as
compared with the current lowest-price method of awarding contracts. OIG made this
determination based on its finding that awarding local guard contracts under a lowest-price
standard in some cases resulted in problems with contractors that proved themselves to be
incapable of fully performing the required services, despite being deemed “technically
acceptable” by an evaluation panel formed to review offerors’ proposals during the contract
competition.

       Under the lowest-price and the best-value methods, the technical evaluation panel assigns
contractors the following ratings in descending order: “excellent,” “good,” “marginal,”
“unacceptable,” and “neutral.”6 Using the contractors exemplified in Table 1, under the lowest-
price award method, the offeror who was technically acceptable and had submitted the lowest
bid would most likely be awarded the contract–in this instance, Offeror B.

        However, under the best-value method, the Government may consider factors other than
price in making the award, such as technical approach and past performance, when the perceived
benefit merits the additional cost, per FAR 15.101-1. In the examples in Table 1, the
Government could choose Offeror C based on best value to the Government, recognizing the
better performance ratings in addition to the bid. The use of the best-value method does not
mean that the Government will not award a contract to the offeror that submits the lowest bid. It
just gives the contracting officer the option of considering performance ratings rather than the
bid alone.

6
 The technical evaluation panel assigns a neutral rating only if the offeror has no relevant past performance or if past
performance information is not available.
                                                     5
                                                UNCLASSIFIED
                                               UNCLASSIFIED



Table 1. Lowest-Price and Best-Value Methods of Awarding Contracts

    Description                       Offeror A               Offeror B               Offeror C
    Past Performance                  Marginal                 Marginal               Excellent
    Technical                         Marginal                 Marginal               Excellent
    Approach
    Key Personnel                      Good                    Marginal                Good
    Management                        Marginal                 Marginal               Excellent
    Response
    Offeror’s Price                 $4.83 million           $4.76 million           $4.86 million

Source: U.S. Department of State, A/LM/AQM.

        Department officials stated that the best-value award method would likely give
contracting officers greater flexibility in making awards for local guard services in countries with
high-threat security situations.7 An official from one such high-threat post stated: “At this post,
lowest cost would equal [the] least well-equipped. With the higher-cost local guard force, the
enhanced communications network and access to the resources of the larger company is of great
benefit.”

Lowest-Price Award Method Often Limits Competition

        Department officials stated that the lowest-price award method often limits competition.
In contrast, having the option to use the best-value method could have the effect of encouraging
larger, more qualified companies to compete for the awards, thus improving local guard contract
performance while promoting cost competition. Another result could be fewer demands from
post officials for contract oversight and problem resolution, thus enabling them to focus on other
post security and administration duties.

        The AQM contracting officer responsible for local guard contracts stated that all such
contracts had been subject to full and open competition except for a small number that were set
aside for small businesses. During the review, however, OIG noted that many contract
competitions for local guard services under the current lowest-price award method had few
qualified companies submitting offers that could foster robust price competition. Specifically, 18
of the 35 active guard contracts awarded by AQM in Washington, DC, had only one or two
bidders competing that were deemed acceptable by a technical evaluation panel reviewing their
qualifications. (OIG’s methodology for selecting these 35 contracts is detailed in Appendix A.)

       In contrast, a contract awarded on September 29, 2010, to provide security services in
high-threat areas and higher-than-critical threat areas, the Worldwide Protective Services (WPS)
contract, was awarded under the best-value method. Local guard service requirements were

7
 According to the Security Environment Threat List, published semiannually by the Department, over 50 percent of
all posts fall under the terrorism threat levels of critical or high, based on a four-category threat rating of low,
medium, high, or critical.
                                                    6
                                               UNCLASSIFIED
                                              UNCLASSIFIED


included for awards to be made in Iraq and Afghanistan.8 The solicitation for the WPS contract
stated that it would be awarded as a “best-value” to the Government rather than to the lowest-
price proposal, which likely encouraged greater interest among potential security services
vendors. The WPS solicitation emphasized contractor technical qualifications and past
performance as having greater significant than price. Twelve contractors provided offers, and
awards were made to eight contractors. The WPS contract is an indefinite delivery/indefinite
quantity umbrella contract in which contractors will compete for task orders throughout the
world.9

        DS and A Bureau officials stressed the advantages of having the authority to use the best-
value award method as an option to promote greater competition among technically qualified
firms. In response to OIG’s survey, one post official stated, “The bottom line is you get what
you pay for–the lowest bidder usually provides the least motivated/dedicated and worst
performing guards.” Information obtained from OIG’s survey seems to confirm this statement.
Specifically, “insufficient guard training” and “absenteeism” were cited by more than one-third
of the respondents who were encountering difficulties with contractors. Problems pertaining to
“equipment and uniforms” were also cited by more than one-third of the respondents.

The Best-Value Award Method Is a Better Alternative in Certain Cases

        Department officials from both DS and the A Bureau stated that they would like to have
the flexibility to utilize the best-value award method at selected posts worldwide. DS officials
stated that they did not foresee utilizing these types of contracts “across the board” (that is, at all
posts) but would welcome the opportunity to use best value based on some or all of the following
factors: the post’s security needs; the country’s laws and regulations; and the availability of
qualified, interested vendors. An AQM official stated that the Department does not have current
experience using the best-value award method for local guard competitions and that Department
officials therefore cannot directly compare the effectiveness of best-value with the lowest-price
award method.

        The results of OIG’s survey disclosed that 72 percent (62 of 86) of responding post
officials stated that they had experienced problems with their current contractor (as discussed in
the next section of this report). Additionally, survey respondents noted that on average, local
guard contractors are monitored 23 hours per week, which could adversely impact post security.
Given the problems that some posts have experienced with contracts awarded under the lowest-
price method, it is understandable that 61 percent (48 of 79) of responding officials stated that
they believed their posts would benefit to either a “great extent” or a “very great extent” from
having the option of awarding local guard contracts on the basis of a best-value tradeoff. The
responses for this particular survey question are depicted in Figure 1.




8
 Prior to WPS, the U.S. Embassies in Baghdad and Kabul had individual local guard force contracts.

9
 The WPS contract has a maximum value of $10 billion for all task orders combined over the base year and four

1-year options.

                                                   7
                                              UNCLASSIFIED
                                           UNCLASSIFIED


       Figure 1. Responses From 79 Posts to Question 11 (Support for Best-Value)

           Little/No Extent       6        8%



              Some Extent             8         10%



          Moderate Extent                   17                  22%



              Great Extent                                 26               33%



         Very Great Extent                            22              28%


       Source: OIG survey sent to posts.

        As one respondent commented, “We feel that providing the highest level security for the
lowest cost is the end goal and we are a big proponent of best value contracting in general.”
Another respondent noted, “Based on my experience, best value is the way to go at any post that
is rated Critical for crime, terrorism, and/or political violence.”

        To supplement responses to the survey, OIG visited Embassies Paris (France) and
Pretoria (South Africa) to interview post officials and observe local guards in action. The two
posts were chosen because their local guard contracts were among the highest-cost contracts
awarded by A/LM/AQM in Washington, DC. OIG also chose to visit these embassies because
there had been significant performance deficiencies noted at these locations. (OIG’s
methodology for selecting these two posts is presented in greater detail in Appendix A.)

        Officials at Embassy Paris stated that they would like to have the option of using the best-
value award method to better meet their post’s local guard needs. One Embassy Paris official
stated that he “favor[s] getting the best qualified firms to provide the guard force [and not
necessarily the lowest-cost].” Sentiments at Embassy Pretoria were similar. An RSO official
there noted that the current local guard contractor had used the contract with the Mission to
South Africa to help establish credibility and to be awarded other guard contracts in the country
despite the performance deficiencies it has had with the Mission contract. Furthermore, South
Africa has a well-developed guard industry, and the same post official noted that awarding the
contract at a higher cost to a better qualified vendor using the best-value method would have
likely avoided many of the problems the post has experienced with the current contractor, such
as unmanned posts, guards out of uniform, and guards without security clearances.

        Using the best-value award method, contracting officials can select the most
advantageous local guard vendor by evaluating and comparing other factors in addition to cost.
Potential local guard contractors can be closely examined, evaluated, and rated based on their
qualifications and performance capabilities, and the best-qualified contractor that offered the best
price can be chosen. In addition, the best-value method can be used to select local guard
                                                8
                                           UNCLASSIFIED
                                             UNCLASSIFIED


contractors that present less risk and who are more likely to deliver the best overall value to the
Government. In response to OIG’s survey, one RSO in the Bureau of Near Eastern Affairs
stated:

       I feel that best value guard contracts could minimize the risk of having very
       poorly paid guards. When guards do not make a living wage, problems snowball
       and one really can't have a decent guard program. There is also great value in
       strong contractor management, and a best value approach would allow us to take
       advantage of opportunities with contractors who have proven that they can find
       and retain good program managers and guard force commanders.

       Another RSO stated:

       A best value approach will minimize the burden of managing resources. The
       Regional Security Officers will have staff in the way of guards, supervisors,
       Project Managers[,] and administrative resources proportionate to the complexity
       of the security programs RSOs are expected to manage.

More Than Two-Thirds of Posts Responding to an OIG Survey Noted Problems With
Their Local Guard Contract

       Seventy-two percent (62 of 86) of survey respondents noted that they had experienced
problems with their current contractor, as shown in Figure 2.

       Figure 2. Responses From 62 Posts to Survey Question 9 (Problem Categories)

         Insufficient Number of Guards                           23                            37%

            Insufficient Guard Training                             25                               40%

                          Absenteeism                          21                        34%

           Guard/Supervisor Relations                    14                   23%

                    Low Guard Morale                           21                        34%

             Equipment, Uniforms, etc.                         21                        34%

                Questionable Expenses        4      6%

                                 Other*                                  28                                45%


       *Responses reported in the “Other” problem category included guards sleeping while on duty, guards not
       able to meet English language requirements, theft of government property, and labor actions (that is,
       strikes).
       Source: OIG survey sent to posts.

       In France, OIG found that the contractor did not hire a replacement guard for a post in
Marseille for at least 3 months but instead sent a guard from the Paris post for temporary duty.

                                                  9
                                             UNCLASSIFIED
                                             UNCLASSIFIED


In South Africa, the post identified all of the survey deficiencies noted in Figure 2. The RSO at
Embassy Pretoria cited low guard morale, absenteeism, and the threat of a guard strike as serious
deficiencies in a country that already had a high rate of crime. Another Pretoria official
expressed concern that the local guard force rapid response team was not fully effective in
securing family residences against armed burglaries and robberies. Also in South Africa, the
RSO’s locally employed guard supervisor noted the need to make periodic on-site security
assessments of these family residences. Similarly, OIG accompanied RSO officials on an
unannounced security assessment of a U.S. Agency for International Development facility in
Pretoria, which is also protected by Embassy Pretoria’s local guard contractor. During the
assessment, security deficiencies at the site were identified, and the guard supervisor was
notified of the need to take immediate corrective actions.

       Almost two-thirds of survey respondents reported that they had taken deductions (that is,
monetary penalties) for performance deficiencies in an effort to correct local guard contractor
performance problems. Almost 90 percent of respondents reported that they had had e-mail or
telephone communications and/or face-to-face meetings with the contractor in attempts to
remedy various problems, as shown in Figure 3.

       Figure 3. Responses From 62 Posts to Survey Question 10 (Actions Taken)


                        None     1 2%


            Email/Telephone                               54                           87%


                    Meetings                              55                             89%


         Contract Deductions                        40                   65%


                 Cure Notices       12        19%


             Demand Letters        9        15%


                       Other*          15         24%



       *Responses reported in the “Other” category included personnel changes and remedial training.
       Source: OIG survey sent to posts.

       Recipients of Local Guard Contracts Are Not Always Sufficiently Qualified

        OIG found that in some cases, minimally qualified companies that won contracts with
unrealistically low offers were subsequently not able to fully meet the post guard needs specified
in the contracts–a problem that may be mitigated by use of the best-value method. As a result,
unexpected oversight and problem resolution demands have been placed on Department officials.
In response to OIG’s survey, one RSO stated, “In my experience lowest bid is always equal to
                                               10
                                       UNCLASSIFIED
                                       UNCLASSIFIED


lowest level of service.” The same RSO observed that incumbent contractors often “low ball”
offers to keep contracts and then immediately cut wages to generate any profit. These types of
actions often result in low morale among the guard force and can present additional challenges
for the RSO.

        Of the 16 of 35 local guard contracts reviewed in which the Department noted
performance problems and had issued one or more deficiency notices, OIG determined that
significant price margins existed between the winning contractor’s offer and that of the next
lowest-price offer. For example, at Embassy Bujumbura (Burundi), three contractors were
qualified as technically acceptable. The winning contractor in that competition offered a price of
$3.8 million, while the next lowest offer was $15.4 million, or a difference of $11.6 million. At
Embassy Santiago (Chile), two contractors were deemed technically acceptable. The winning
contractor in that competition offered $2.5 million, while the other contractor offered
$8.7 million, or a difference of $6.2 million. At Embassy Kampala (Uganda), for which the
Department had issued nine deficiency notices, five contractors were deemed technically
acceptable. The winning contractor in that competition offered $11 million, while the next
lowest offer was $15 million, or a difference of $4 million. At Embassy New Delhi (India), for
which the Department had issued seven deficiency notices, four contractors were deemed
technically acceptable. The winning contractor offered a price of $8.6 million, while the next
lowest offer was $11.3 million, or a difference of $2.7 million. Given these considerable
differences in which price was the overriding factor in awarding these aforementioned problem
contracts, use of the best-value approach could preclude this situation.

       Local Guard Contracts Required Unexpected Oversight

        OIG found that local guard contracts let under the current lowest-price award method
often resulted in unexpected oversight and problem resolution demands being placed upon
Department officials–a condition that may be alleviated by the use of the best-value method,
where price is not the overriding factor in awarding the contract. For example, at Embassies
Paris and Pretoria, local guard companies were not performing in accordance with their
contracts, with such documented deficiencies as failure to replace equipment on a timely basis;
inadequate guard training, security screening, and certifications; poor record keeping; payroll
problems; and unmanned posts. Overseas staff indicated that substantial time was required to
monitor the contracts, including hiring a full-time locally employed staff member to provide
daily contract oversight. Based on an analysis of 35 local guard contracts at various overseas
posts, OIG determined that 16 contracts (46 percent of those reviewed) had at least one or more
problems that prompted post officials to issue deficiency notices to the contractor. For example,
at Embassy Pretoria, Consulate General Johannesburg, and Consulates Durban and Cape Town,
60 deficiency notices had been sent to the local guard contractor. The problems cited in the
deficiency notices included unmanned (or unarmed) posts, lack of key personnel, failure to
provide contractor-furnished equipment, and insufficient training records.

       The results obtained from the survey conducted for this review also were indicative of
contract oversight challenges. Overall, post RSO personnel spent an average of about 23 hours
per week to monitor their respective contracts, and at some posts, RSO personnel reported that
the weekly oversight requirements reached 60 hours, or nearly three times the average reported.
Regarding the oversight burden, 72 percent (62 of 86) of survey respondents noted that they had
experienced one or more problems with their current contractor. The additional costs attributable
                                                11
                                       UNCLASSIFIED
                                                UNCLASSIFIED


to unexpected oversight and problem resolution for post officials can be substantial and include
the time not devoted to other security responsibilities.

        Department officials stated that some contractors with awards made under the lowest-
price method performed unacceptably, although those vendors were rated “acceptable” by a
technical evaluation panel examining their qualifications during contract competition. Moreover,
despite financial penalties assessed for contract deficiencies, post officials at Embassy Paris
stated that such penalties are often seen by the contractors as “just the cost of doing business”
and “not sufficiently severe to force corrective actions to be taken in a timely manner.” An
Embassy Pretoria official stated that, in his view, the current local guard contractor intentionally
underbid the contract price, thus taking a loss, just to win that award because the U.S. Embassy
contract was seen as prestigious and good for marketing the company’s brand. He further stated
that the contractor is losing money because of deductions taken for poor contract performance
and yet, in his view, there was still “insufficient incentive for the contractor to improve services
or perform above the baseline of expectations.” He concluded by stating that for the next
contract competition, the mission would benefit greatly from the best-value award method.

        According to an AQM official, performance problems with local guard contractors at a
number of posts have greatly increased post oversight burdens and have resulted in the issuance
of multiple cure notices and show cause notices.10 One overseas official reported that he had
experienced difficulties in managing the “problem contractors,” noting that such oversight
expends administrative time that could be better spent on other tasks. Another post official
stated that if the post’s local guard contract had been awarded to a more qualified company, RSO
staff would likely not have to handle so many problems. The same official stated that the
Department is “skimping on quality and service by going with the lowest-cost bidder” and that
he believed there is an “inverse relationship between costs saved and the extra burden placed on
post officials [for oversight].” Finally, one RSO suggested ways to improve contractor
performance under a best-value award method as follows:

         Currently the lowest bid is awarded the contract. This leads mostly to lower
         wages for guards. With lower wages, we see a direct correlation to guard
         performance and we lose a lot of guards through turnover. If RSO’s can have
         some input into wages for guards through the best-value tradeoff, we could see a
         tremendous increase in guard performance and lower turnover rates. It’s amazing
         what a couple of dollars an hour extra would do for morale and security
         operations.

The 10 Percent Price Preference Given to U.S. Companies Is No Longer Relevant in the
Current Local Guard Contracting Environment

       OIG determined that the 10 percent price preference given to U.S. companies is not
relevant in the current local guard contracting environment. The law11 states that proposals from
10
   A cure notice is issued when a contractor fails to adhere to any elements of the contract. The notice identifies the
problem and actions needed to correct or “cure” the problem. A show cause notice is issued to the contractor prior
to termination of a contract for default. The notice identifies the contract deficiencies and demands the contractor
explain or “show cause” why the contract should not be terminated. (Source: Foreign Affairs Handbook, 12 FAH-7
H-429.3.)
11
   22 U.S.C § 4864.
                                                     12
                                                UNCLASSIFIED
                                                UNCLASSIFIED


U.S. companies or qualified joint ventures “shall be evaluated by reducing the bid by
10 percent.” Based on an examination of contract competition documents for 35 local guard
contracts, OIG found that the 10 percent price preference given to qualifying U.S. companies had
no effect on the outcome of the awards. OIG further determined that it is easy for foreign
companies wishing to take advantage of the price preference to become eligible by simply
forming a joint venture with a U.S. company, thus largely negating the purpose of the preference.
One Department official familiar with local guard contracting thought the 10 percent price
preference was an “anachronism” in the current contracting environment, given the ease with
which non-U.S. firms can partner with U.S.-based companies to claim the preference. An
embassy official noted that embassies in developing countries often have local guard contracts
that are awarded to local subsidiaries that have vague connections to a U.S. company or to a
company that is simply a franchise of a U.S.-affiliated firm wholly owned and managed outside
the United States. Such arrangements defeat the purpose of the price preference.

        An AQM official identified only two contracts among the 35 contracts awarded by AQM
in Washington, DC, in which the 10 percent price preference was applied: at Embassies
Kinshasa (Democratic Republic of the Congo) and Seoul (Korea). Upon reviewing the files for
these contracts, however, OIG found that in neither case did the price preference actually have an
impact on the eventual award of the contract. For Embassy Kinshasa, one of the two bids that
were found to be technically acceptable was submitted by a joint venture that was determined to
be eligible for the 10 percent price preference. The second technically acceptable bid also
qualified for a 10 percent price preference because it was submitted by a U.S. firm. The price
preference made no difference in the outcome of the award, since both companies were qualified
to receive the preference. For Embassy Seoul, the price preference provided to two technically
acceptable U.S. companies made them more competitive cost-wise. However, even with the
preference, a non-U.S. company was awarded the contract because that company’s offer was
lower than the offers of the other companies, even after the price preference was applied to
adjust the offer.

        In addition, OIG found that for 28 of 35 local guard contract competitions, the 10 percent
price preference made no difference in awarding the contract in most cases, either because all of
the offerors claimed the preference or none of them did or because the preference was not
enough for the offeror to win the award. The price preference was not applicable to the
remaining five contracts OIG reviewed because the contracts were awarded on a sole-source12
basis or were bridge contracts.13

                                                  Conclusions
        OIG determined that the authority to apply the best-value award method would be a
valuable option for encouraging qualified local guard firms to compete for contracts and for
selecting local guard contractors best able to protect the Department’s diplomatic posts. The
technical merit criteria applied by the best-value award method could provide an increased level

12
   “Sole-source” is a type of contract to a company without competition for the company to be the sole supplier of a 

product or service. (Source: FAR pt. 2.101). 

13
   A “bridge” contract provides contractual coverage on a noncompetitive basis when needed at the expiration of a 

competitive contract. This type of contract will allow post time to complete the recompetition for a new contract. 

(Source: Overseas Contracting and Simplified Acquisition Guidebook [the “Cookbook”], ch. 4, pt. III.D) 

                                                     13
                                                UNCLASSIFIED
                                       UNCLASSIFIED


of security for posts, particularly those posts that have experienced problems with their current
vendors under the lowest-price award method. The use of the best-value award method for local
guard contracts could also permit RSO staff to spend more of their time on other matters within
their purview of responsibilities, assuming reduced hours on oversight needed for better qualified
vendors awarded contracts under the best-value method.

       OIG also determined that the 10 percent price preference given to U.S. companies
bidding on local guard contracts has not been a factor in recent local guard contract competitions
and that this requirement may therefore no longer be needed.

Matters for Congressional Consideration

       OIG offers the Senate Committee on Foreign Relations, in assessing application of the
best-value contracting method for the Department’s Local Guard Program, the following
suggestions:

   1.	 Expand Department of State authority to use the best-value award methodology beyond
       Iraq, Afghanistan, and Pakistan for local guard services at overseas diplomatic posts.

   2.	 Review the need for a 10 percent price preference given to U.S. companies bidding on
       local guard contracts because the preference has not been demonstrated to be a factor in
       recent local guard competitions.




                                            14
                                       UNCLASSIFIED
                                                 UNCLASSIFIED



                                                                                                         Appendix A

                                          Scope and Methodology
        The Office of Inspector General (OIG) conducted this review between July 2011 and
January 2012 in Washington, DC, and at Embassy Paris and Embassy Pretoria. OIG interviewed
officials from the Bureau of Diplomatic Security, Office of International Programs, Office of
Overseas Protective Operations (DS/IP/OPO), as well as officials from the Bureau of
Administration, Office of Logistics Management, Office of Acquisitions Management
(A/LM/AQM). While conducting fieldwork overseas, OIG interviewed staff members at
Embassies Paris and Pretoria. OIG judgmentally selected these two embassies as site-visit
locations because the local guard contracts at these posts were among the highest cost local
guard contracts awarded by A/LM/AQM in Washington, DC (first- and third-highest costs
among such contracts over their full 5-year performance periods, at $60.7 million and
$33.2 million, respectively). OIG also chose to visit Embassies Paris and Pretoria because there
had been significant performance problems reported at these locations, including two deficiency
notices1 issued to the Paris local guard contractor and an unusually high 60 such notices issued to
the Pretoria contractor.

        Of the 104 local guard contracts that were active as of August 1, 2011, OIG reviewed
documentation for all 35 contracts that were awarded by A/LM/AQM in Washington, DC. (The
remaining 69 active contracts were awarded at overseas posts, and those contract files were not
easily accessible for review.) During a review of these files, to analyze the relationship between
contract performance and competition methods, OIG focused on documents that described
performance problems, including cure notices, deficiency letters, and deduction letters.

        OIG conducted a survey of officials at all 104 posts with an active local guard contract,
whether that contract was awarded by AQM in Washington, DC, or at post. (The survey and its
results are summarized in Appendix C.) In those instances where a response was received from
more than one person at a particular post, the response from the individual who was believed to
be more involved with contract oversight at that post was used. If an individual submitted more
than one response, the response that had the most complete information was used.

       OIG also reviewed information available on the Web site USAspending.gov to determine
how many of the 104 contracts had been awarded to U.S.-based companies and to determine
whether the U.S.-based companies were subsidiaries of foreign firms. In a number of instances,
however, the information on the Web site about the U.S.-owned or foreign-owned status of local
guard contractors was incomplete or unclear and therefore could not be used.

     OIG briefed officials from DS and the A Bureau on the results of the review in
November 2011, and those officials were generally in agreement with the report’s findings.


1
 A deficiency notice is a written notice issued by a contracting officer that states a deficiency the contractor has had
in meeting the terms of the contract, and it requires the contractor to provide a remedy. (Source: Overseas
Contracting and Simplified Acquisition Guidebook [the “Cookbook”], ch. 7, pt. XI.C)



                                                      15
                                                 UNCLASSIFIED
                                     UNCLASSIFIED


Neither bureau provided comments on the draft report. However, the Bureau of African Affairs
provided written comments, which are presented in Appendix D.

       This review was performed by the Office of Audits, Contracts and Grants Division.




                                          16
                                     UNCLASSIFIED
                                                                       UNCLASSIFIED



                                                                                                                  Appendix B

              JOHN F ICERA.Y, MASSACHUSETTS. CHAIRMAN

BARBARA BOXER, CAUFORN!A                RICHARD G LUGAR. INOlANA
ROBCAT MENENOCZ. NE'N JERSEY            BOB CORI(ER. TrNNESSEE
BENJAMIN L CARDIN, MARYLAND             JAME'S E. RISCH, IDAHO
ROBERT P. CASEY, JR.. PENNSYLVANIA      MARCO RUBIO, FlORIDA
JIM W[BB, VIRGINIA                      JAMES M INHOF£, OKLAHOMA
JEANNE SHAtl rEN. NEW HAMI-'SHIRE
CIIRISTOPHEI' A. COONS, DELAWARt'
RICHARD J DURBIN, tl UhOIS
TOM UDAll, NEW MEXICO
                                        JIM [)(MINT, SOUTH CAROl iNA
                                        JOHNNY ISAKSON, GEORGIA
                                        JOHN BARRASSO W'I'OMING
                                        MIKE lEE, UTAH
                                                                           CJ.anitcd ~tetts ~mate
                                                                             COMMITTEE ON FOREIGN RELATIONS
               FRANK G. LOWFNSTEIN, STArF O!AECTOR                               W ASHINGTON,   DC 20510-6225
          KENN(TH A. MYERS, J11, R£9V8UCAN STAH OIRECTOA



                                                                           June 27,2011
              Mr. Harold W. Geisel
              Deputy Inspector General
              Office of Inspector General
              Department of State
              Washington, DC 20520
              Dear Inspector Geisel:

                      We write to you today regarding growing Congressional concerns related to the
              increasing costs of the Department of State's Local Guard program, which is used to provide
              protective services to our diplomatic missions and personnel overseas.

                      Current legislation allows the Department of State to award such contracts on a best
              value/technically-acceptable basis rather than simply on a lowest cost basis in Iraq, Afghanistan
              and Pakistan. This exception was made, in part, due to the unique challenges posed by each of
              these locations. Additionally, Congress was concerned that some guard contracts that were
              awarded based on lowest price resulted in either higher costs when as vendors found their wage
              scales were unrealistic and were forced to pay more or when low-paid employees provided sub­
              standard performance.

                     Tn order to determine the impact of this policy with regard to these three countries, and
              possible application of this award basis to guard contracts world-wide, we request that the Office
              oflnspector General examine the question of best-value contracting for local guards to
              determine, in an assessment, whether:                            ·

                                    •   best-value local guard contracting is more cost-effective and leads
                                        to improved service delivery than technically-acceptable, lowest
                                        cost contracting

                                    •   overseas posts require greater oversight for technically-acceptable,
                                        lowest cost basis contractors, and

                                    •   a 10% price preference for firms that that meet the statutory
                                        definition for "United States person" is viable in today's market.
                      Should you have any questions, please contact Steve Feldstein for the
              Maj ority (224-4934) and Paul Foldi for the Minority (224-1 439).




                                                                                                     JoM~(;
                                                                           Sincerely,

~fi,~
                          Richard G. Lugar
                          Ranking Member                                                             Chairman




                                                                            17 

                                                                       UNCLASSIFIED
                                               UNCLASSIFIED



                                                                                                            Appendix C


                                                  United States Department of State
                                                  and the Broadcasting Board of Governors

                                                  Office of the Inspector General



                                    Local Guard Program Survey

At the request of the Senate Committee on Foreign Relations, the Office of Inspector
General (OIG), Office of Audits, is conducting a review of Best Value Contracting for
the Department of State Local Guard Program (LGP) and the Utility of Expanding the
Policy beyond High Threat Posts in Iraq, Afghanistan, and Pakistan. This survey is being
sent to solicit the views and other information from those persons who administer the
local guard contracts at post.

Please take time to complete the short survey and return it to OIG within two weeks of
the date of this e-mail. Completing the survey will take approximately 10 minutes.

Although the survey is addressed to the RSO and/or GSO, consultation with others may
be helpful in responding to some of the questions. OIG encourages this approach but
requests that only the RSO and/or GSO control the process and return a single post
response to OIG. This will assist OIG efforts to timely compile the responses and report
the findings.

 Please open the attachment on the “Message” line to access the survey. If you have
 any questions, please contact Mark Taylor, Audit Manager, at (703) 284-    or e-mail
                                                                                               [Redacted] (b) (6)




                   @state.gov.
[Redacted] (b) (6)




Completed surveys can be emailed as an attachment to oiglgpreview@state.gov.

Thank you for participating in this important survey.

Notes: (1) 	 Responses to the questions are first expressed in raw totals and then followed by percentages enclosed
              by parentheses, unless specified otherwise.
       (2) Percentages may not add to 100 due to rounding; additionally, the number of responses to each
             question is not identical because respondents did not answer all questions.
       (3) For questions 6 and 11, the asterisk in the last response choice indicates that “Don’t know/no basis to
             judge” responses were filtered from the data for clarity of the analysis and presentation. Consequently,
             for question 6, only respondents actually providing assessments were included in calculating the rates
             pertaining to contractor performance, and for question 11, only respondents actually providing
             opinions were included in calculating the rates pertaining to the benefit, if any, from awarding local
             guard contracts on the basis of best-value tradeoff.




                                                    18
                                               UNCLASSIFIED
                                         UNCLASSIFIED


1. 	 What is your position at post? (Check one.)

    1. [85 (99%)] RSO/ARSO
    2. [	 0 ( 0%)] GSO
    3. [	 1 ( 1%)] Other (Please specify.)____________

2. 	 About how long have you been overseeing the local guard contract at post?

    Responses averaged 12 months.

3. 	 How would you characterize the awarding of your post’s current LGP contract? (Check
     one.)

    1. [78 (93%)] Competitive (i.e., two or more offerors)
    2. [	 6 ( 7%)] Non-competitive (i.e., sole-source or only one offeror)

4. 	 How satisfied or dissatisfied are you with the current LGP contractor’s performance? (Check
     one.)

    1. [20 (23%)]    Very satisfied
    2. [39 (45%)]    Generally satisfied
    3. [16 (19%)]    Neither satisfied nor dissatisfied
    4. [	 6 ( 7%)]   Generally dissatisfied
    5. [	 5 ( 6%)]   Very dissatisfied
    6. [	 0 ( 0%)]   Don’t know/no basis to judge

5. 	 Was your current LGP contractor the incumbent? (Check one.)

    1. [57 (66%)] Yes ----------------> GO TO QUESTION 7.
    2. [29 (34%)] No

6. 	 How would you evaluate the current LGP contractor’s performance as compared to the
     previous contractor? (Check one.)

    1. [	 4 (24%)]   Very superior to the previous contractor
    2. [	 5 (29%)]   Somewhat superior to the previous contractor
    3. [	 4 (24%)]   About the same
    4. [	 3 (18%)]   Somewhat inferior to the previous contractor
    5. [	 1 ( 6%)]   Very inferior to the previous contractor
    6. [ * ]         Don’t know/no basis to judge

7. 	 On average, about how many hours per week is your current LGP contractor subject to
     monitoring?

    Responses averaged 23 hours per week.



                                              19
                                         UNCLASSIFIED
                                        UNCLASSIFIED


8.   Have you encountered any problem(s) with your current LGP contractor? (Check one.)

     1. [62 (72%)] Yes
     2. [24 (28%)] No -----------------> GO TO QUESTION 11.

9.   How would you categorize the problem(s)? (Check all that apply.)

     1. [23 (37%)]   Insufficient number of guards
     2. [25 (40%)]   Insufficient guard training
     3. [21 (34%)]   Absenteeism
     4. [14 (23%)]   Guard – Supervisor relations
     5. [21 (34%)]   Low guard morale
     6. [21 (34%)]   Equipment, uniforms, etc.
     7. [ 4 ( 6%)]   Questionable expenses
     8. [28 (45%)]   Other (Please specify.)____________

10. What action(s), if any, have you taken to correct the problem(s)? (Check all that apply.)

     1. [ 1 ( 2%)]   None
     2. [54 (87%)]   E-mail or telephone communications
     3. [55 (89%)]   Face-to-face meetings
     4. [40 (65%)]   Contract deductions for performance deficiencies
     5. [12 (19%)]   Cure notices
     6. [ 9 (15%)]   Demand letters
     7. [15 (24%)]   Other (Please specify.)____________

11. To what extent, if at all, do you believe that your post would benefit from having the option
    of awarding local guard contracts on the basis of a best-value tradeoff (performed per the
    requirements of FAR 15.101) rather than the current statutorily required method of selecting
    the lowest-priced bid among those bids considered technically acceptable? (Check one.)

     1. [ 6 ( 8%)]   Little or no extent
     2. [ 8 (10%)]   Some extent
     3. [17 (22%)]   Moderate extent
     4. [26 (33%)]   Great extent
     5. [22 (28%)]   Very great extent
     6. [ * ]        Don’t know/no basis to judge

12. Please use the space below to elaborate on any answer and/or to provide suggestions for
    improving the local guard program. (If your comments address a specific question above,
    please cite the question number in your comments.)

     43 respondents (50%) provided substantive feedback.




                                             20
                                        UNCLASSIFIED
                              UNCLASSIFIED



                                                                                Appendix D




                                                 United States Department of State

                                                Bureau ofAfrican Affairs

                                                Washington, D.C. 20520-6258

                                                    January 24,2012


MEMORANDUM
UNCLASSIFIED



TO:         OIG - Patrick Sampson
            OIG- Mark Taylor
            OIG - Richard Astor

FROM:       AFIEX- Michael A. Raynor ~

SUBJECT: Draft Report - Review of Best-Value Contracting for the Department
         of State Local Guard Program and the Utility of Expanding the
         Policy Beyond High-Threat Posts in Iraq, Afghanistan, and Pakistan


I'm encouraged by this report, which does a balanced and credible job of capturing
the challenges AF posts (at least) can face when LGP contracts are awarded to the
lowest bidder. As the report notes, the low bidder concept not only discourages
competition from more qualified bidders but often results in poorly paid and
motivated guards, and we'd be very pleased if Congress expands the best value
award system. We in AF are particularly concerned with the problem of lowest­
bid contractors paying guards less than living wages, not only because of the
human and security costs but because this often undercuts our Missions' broader
engagement in championing human rights.




                                UNCLASSIFIED




                                   21 

                              UNCLASSIFIED
                                     UNCLASSIFIED





Major Contributors to This Report
Richard A. Astor, Audit Director
Contracts and Grants Division
Office of Audits

Mark P. Taylor, Audit Manager
Contracts and Grants Division
Office of Audits

Cindy A. Nelson, Senior Auditor
Contracts and Grants Division
Office of Audits

Patrick M. Sampson, Senior Auditor
Contracts and Grants Division
Office of Audits

Cristina Ward, Senior Auditor
Contracts and Grants Division
Office of Audits

Ernest Arciello, Statistician
Audit Operations Division
Office of Audits




                                          22
                                     UNCLASSIFIED
FRAUD, WASTE, ABUSE, OR MISMANAGEMENT
                 of Federal programs

            and resources hurts everyone.




         Call the Office of Inspector General

                      HOTLINE

                     202/647-3320

                  or 1-800-409-9926

        to report illegal or wasteful activities.



               You may also write to

             Office of Inspector General

              U.S. Department of State

               Post Office Box 9778

                Arlington, VA 22219


       Please visit our Web site at oig.state.gov


           Cables to the Inspector General

          should be slugged “OIG Channel”

              to ensure confidentiality.

UNCLASSIFIED





UNCLASSIFIED

